BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Chad
Bennett v. State of Washington, was sent via Two Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Two Day Service and e-mail to the following
parties listed below, this 29th day of January, 2021:
Garth Dano
Grant County Prosecuting Attorney
Katharine W. Mathews
Deputy Prosecuting Attorney
P.O. Box 37
Ephrata, WA 98823
(509) 794-2011
kwmathews@grantcountywa.gov

Counsel for Respondent
Lila J. Silverstein
Counsel of Record
Washington Appellate Project
1511 Third Avenue, Suite 610
Seattle, WA 98101
(206) 587-2711
lila@washapp.org
wapofficemail@washapp.org

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 29, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

J~

Nota~k'?i:~

cl q

cJ O{)--(

[seal]

JOHN D. GALLAGHER
Notary Public, Slate of Ohio
My Commission Expires
February 14, 2023

